<html>
<title> - [H.A.S.C. No. 112-44]TESTIMONY FROM MEMBERS ON THEIR NATIONAL DEFENSE PRIORITIES FOR THE FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BILL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 112-44]

 
  TESTIMONY FROM MEMBERS ON THEIR NATIONAL DEFENSE PRIORITIES FOR THE 
          FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BILL

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 14, 2011

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
67-393                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6a7d624d6e787e796568617d236e626023">[email&#160;protected]</a>  
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jaime Cheshire, Professional Staff Member
               Timothy McClees, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, April 14, 2011, Testimony from Members on Their 
  National Defense Priorities for the Fiscal Year 2012 National 
  Defense Authorization Bill.....................................     1

Appendix:

Thursday, April 14, 2011.........................................    35
                              ----------                              

                        THURSDAY, APRIL 14, 2011
  TESTIMONY FROM MEMBERS ON THEIR NATIONAL DEFENSE PRIORITIES FOR THE 
          FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BILL
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Berg, Hon. Rick, a Representative from North Dakota..............    12
Carter, Hon. John, a Representative from Texas...................    29
Carson, Hon. Andre, a Representative from Indiana................    14
Crawford, Hon. Eric A. ``Rick,'' a Representative from Arkansas..    30
Duncan, Hon. Jeff, a Representative from South Carolina..........     4
Kingston, Hon. Jack, a Representative from Georgia...............    16
Kinzinger, Hon. Adam, a Representative from Illinois.............    27
McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Moran, Hon. James P., a Representative from Virginia.............    18
Neugebauer, Hon. Randy, a Representative from Texas..............     2
Pearce, Hon. Stevan, a Representative from New Mexico............     7
Pompeo, Hon. Mike, a Representative from Kansas..................    25
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Shuler, Hon. Heath, a Representative from North Carolina.........    10
Welch, Hon. Peter, a Representative from Vermont.................    21

                                APPENDIX

Prepared Statements:

    Berg, Hon. Rick..............................................    58
    Carter, Hon. John............................................    76
    Carson, Hon. Andre...........................................    60
    Crawford, Hon. Eric A. ``Rick''..............................    79
    Duncan, Hon. Jeff............................................    52
    Kingston, Hon. Jack..........................................    62
    Kinzinger, Hon. Adam.........................................    74
    McKeon, Hon. Howard P. ``Buck''..............................    39
    Moran, Hon. James P..........................................    66
    Neugebauer, Hon. Randy.......................................    40
    Pearce, Hon. Stevan..........................................    54
    Pompeo, Hon. Mike............................................    71
    Shuler, Hon. Heath...........................................    56
    Welch, Hon. Peter............................................    69

Documents Submitted for the Record:

    Bishop, Hon. Timothy H., a Representative from New York......    89
    Bordallo, Hon. Madeleine Z., a Delegate from Guam............    90
    Cohen, Hon. Steve, a Representative from Tennessee...........    93
    Connolly, Hon. Gerald E., a Representative from Virginia.....    95
    Edwards, Hon. Donna F., a Representative from Maryland.......    98
    Hanna, Hon. Richard, a Representative from New York..........   104
    Lee, Hon. Barbara, a Representative from California..........   108
    Luetkemeyer, Hon. Blaine, a Representative from Missouri.....   114
    Pingree, Hon. Chellie, a Representative from Maine...........   117
    Ros-Lehtinen, Hon. Ileana, a Representative from Florida.....   118
    Young, Hon. Todd, a Representative from Indiana..............   120

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  TESTIMONY FROM MEMBERS ON THEIR NATIONAL DEFENSE PRIORITIES FOR THE 
          FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BILL

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, April 14, 2011.
    The committee met, pursuant to call, at 9:33 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee come to order.
    Good morning. The House Armed Services Committee meets 
today to receive testimony from Members of Congress on their 
national defense priorities for the fiscal year 2012 National 
Defense Authorization Act.
    As we begin the process of crafting our legislation, it is 
essential that this committee seek input from all Members of 
the House to better enable us to fill Congress' Article 1, 
Section 8 constitutional mandate to provide for the common 
defense.
    We all share the responsibility to provide the best 
possible resources for our warfighters, and we look forward to 
hearing from this group of our fellow Members of Congress on 
their proposals for how best to carry out our mandate.
    A quick note on the format for today. In consultation with 
the ranking member, we will depart from our regular questioning 
process, which means you won't each have to sit there for all 
of us to ask 5 minutes' worth of questions.
    We will have 5 minutes total for each Member, clarifying 
questions if so needed. Members of the committee may seek 
recognition by raised hand and will be granted 2 minutes 
apiece, up to a 5-minute limit. This will ensure we can hear 
from all of our witnesses today in a timely fashion.
    As this hearing is intended to be a listening session, it 
is not my intent to engage in extended debate or colloquy with 
our witnesses. We look forward to today's testimony and thank 
the participating Members for their advocacy on behalf of our 
troops.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 39.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I just want to 
associate myself with your remarks. This is a committee that 
impacts a lot of districts throughout the country, obviously a 
significant budget, not just those Members who serve on the 
committee. And it is very important to hear from other Members 
who have interests that are contained within the Department of 
Defense bill so that we can best represent Congress and the 
country in the bill we ultimately put out.
    And I look forward to hearing from our fellow Members today 
about what their interests are and working with the chairman to 
try to make sure that they are reflected in the bill that we 
pass out of this committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We now recognize the gentleman from Texas, Randy 
Neugebauer, for 5 minutes.

STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE FROM TEXAS

    Mr. Neugebauer. Thank you, Chairman McKeon and Ranking 
Member Smith. I would like to thank you for the opportunity to 
testify before you today about my national defense priorities.
    My district, Texas 19th Congressional District, is home to 
5,000 military and 1,000 civilian personnel at Dyess Air Force 
Base, located on the outskirts of Abilene, Texas. Dyess houses, 
among many other missions, the 7th Bomb Wing, which is home of 
36 of the 66 B-1 bombers, as well as the 317th Air Group C-
130s.
    As a part of the fiscal year 2012 budget, the Air Force has 
proposed cutting the B-1 fleet by 6 airplanes, reducing the 
total number of aircraft from 66 to 60. The Air Force estimates 
that this will save $61 million in fiscal year 2012 and $357 
million over the next 5 years in the procurement and operations 
and maintenance accounts.
    But however, of these amounts, Air Force plans to invest 
only $32.9 million in the B-1 fleet in fiscal year 2012 and 
$125.4 million over the next 5 years. I am very concerned about 
these proposed cuts, and let me tell you why.
    From September 2001 to June 2010, which is the most recent 
data available, B-1s flew 72 percent of our bomber combat 
missions while representing only 40 percent of the fleet. 
Before combat in Libya just the other day, since May of 2006, 
the B-1s have flown all of the bombing missions. Now, let me 
repeat that. From May 2006 until Libya, the B-1s were the only 
bombers that flew missions, combat missions.
    I know that this--and frankly, a refreshing climate of 
looking at the budget, and I think as the chairman alluded to, 
that we have to look through the entire budget to get our hands 
on these huge deficits we are running. And so I think one of 
the things that is extremely important is prioritization and 
putting our money where we are getting the most value from our 
assets.
    It is just a few weeks ago I was in Dyess and asked a few 
of the airmen around there why the B-1s weren't in Libya, and 
they said, well, because of the number of missions that they 
are flying in other theaters and just didn't have one to spare 
that day.
    So it kind of seems a little funny to me if we didn't have 
one to spare on that day, and now we are talking about 
necessarily reducing by six the number of airplanes that we 
have, that that might not be in our best interest.
    As of June 2010, the B-1 flew more than 4,500 missions in 
the past 5 years. During this time, as I mentioned, 76 B-52s 
and 20 B-2s flew no combat missions. Additionally, the B-1 is 
not only a very capable airplane, and the platform has changed, 
but it is the least expensive bomber in the fleet.
    I have an exhibit that is attached to my testimony, and it 
shows that it is 23 percent more expensive to fly the B-52. And 
it is 179 percent more costly to fly the B-2.
    The B-1 is also extremely versatile. You know, when it 
rolled off the line in 1986, it was primarily designed to 
deliver nuclear capability. Since that time, its nuclear 
mission has been removed. And now it has a really multi-
platform operational capability from carrying very small bombs 
to JDAMs [Joint Direct Attack Munition] to very large bombs. 
And in fact, now with new capability with radar and the sniper 
targeting pod, it is also used for intelligence and 
surveillance during operations.
    Obviously, it is an all-weather, all-day, 24/7 aircraft 
capability. It goes at night, goes in weather, high altitude, 
low altitude, and has become an extremely effective weapon in 
the last few years, particularly in the fights that we have 
been involved in. It is able to deliver real-time information 
to people on the ground and then also deliver whatever kind of 
punch that is necessary.
    Recently, there is a new modification that is going to 
happen for the B-1, and it is going to increase its capability 
on JDAM bombs, for example, from 15 to 48. So you can see that 
this has been an extremely effective tool for our Nation in the 
past.
    There have been additional reductions in the number of B-1s 
in the fleet. And it was always in that our readiness factor 
will go up if we reduce the number of planes and take those 
parts and put them in other airplanes. Unfortunately, that 
always gives us a little short-term spike, Mr. Chairman. But 
then we get back in the same readiness factor.
    And so as you are beginning to look at priorities and 
weapons systems and how we fight the fight going forward, just 
remember that, you know, we are at least 15 years, at the very 
minimum, from having any new platform to replace the B-1. And 
if the B-1 is the number one weapon of choice, according to 
General Petraeus--I will close, and I know I am over my time a 
little bit--but one of the things that Mr. Petraeus said is the 
B-1 is a great platform in at least two respects, maybe more.
    One, it carries a heck of a lot of bombs and substantial 
ordnance and second, it is very good at ISR [intelligence, 
surveillance, and reconnaissance] capabilities. It can loiter 
for a good time. And when it is not being used to drop bombs, 
it also is like having another unmanned aerial vehicle in terms 
of full motion video and so forth. So it is just not just a 
case of a very capable bomber, just boring holes in the sky, 
waiting to open the bomb bay doors. It also is a case for a 
platform that is very capable, even as it is doing that flying 
around in circles.
    So, thank you again, Chairman and Ranking Member, and I 
would be glad to take any questions.
    [The prepared statement of Mr. Neugebauer can be found in 
the Appendix on page 40.]
    The Chairman. Thank you. You bring up some really good 
points. I know I am going to look at your testimony. Seems to 
me the B-1 has--you know, we hear a lot about B-52s and we hear 
about B-2s, but we never hear too much about B-1s. You have 
brought some very important points out.
    That comes under your subcommittee, right?
    Mr. Bartlett. Yes.
    The Chairman. [Off mike.]
    Mr. Bartlett. No, this is----
    The Chairman. Readiness?
    Mr. Bartlett. Projection forces.
    The Chairman. Projection forces----
    Mr. Bartlett. Right, heavy bombers and projection forces.
    The Chairman. Okay.
    Anyone have any questions?
    Thank you, Randy. We will look into that. You bring up some 
very good points.
    Mr. Neugebauer. I have some additional exhibits, and part 
of my testimony I would like to request to submit for the 
record as well.
    [The information referred to can be found in the Appendix 
on page 45.]
    The Chairman. Without objection, so ordered, be included.
    Thank you very much.
    Now recognize the gentleman from South Carolina, Mr. 
Duncan, for 5 minutes.

  STATEMENT OF HON. JEFF DUNCAN, A REPRESENTATIVE FROM SOUTH 
                            CAROLINA

    Mr. Duncan. Thank you, Mr. Chairman and members of the 
committee, for this opportunity to speak to you today about one 
of the priorities that this committee faces in the coming year.
    The Savannah River Site and the Savannah River National Lab 
is a unique asset to our Nation. The national lab is critical 
to developing new technologies, which will lead to new ways to 
defend this great Nation. I was pleased recently to lead a tour 
of the site with my colleagues from South Carolina.
    My testimony today is intended to convey that the critical 
work being done at the Savannah River Site is treated the same 
as other defense-related projects, by protecting what is vital, 
even while we cut non-essential spending to reduce our overall 
budget deficit.
    Perhaps the largest national policy impact of the Savannah 
River Site relates to nuclear non-proliferation. The work done 
at Savannah River directly impacts our treaties with Russia and 
our ability to match the work being done to dispose of surplus 
weapons-grade plutonium. Disposing of excess fissile materials 
has been a major U.S. national security and non-proliferation 
objective since 1994, endorsed by every President and Congress 
since that time. Under the 2000 agreement, the United States 
and Russia have committed to dispose 68 metric tons of surplus 
plutonium. These materials, if put on the open market, could 
wind up in the hands of our enemies, the terrorists who wish us 
harm. These are the materials that are being disposed of safely 
at Savannah River Site.
    Disposing of surplus U.S. weapon-grade plutonium 
demonstrates that the United States is living up to its non-
proliferation commitments by drawing down its nuclear arsenal 
in a transparent and irreversible manner.
    I especially want to bring your attention to the work being 
done at the chemical separation facility known as H-Canyon. H-
Canyon is the only facility of its kind in the United States, 
yet the Department of Energy has proposed putting it in a warm 
or standby mode. Putting H-Canyon on standby or warm mode will 
inevitably cause severe negative impacts and would cost 
taxpayers more money in the future than it would save 
immediately. Repowering this type of facility after it has been 
out of commission for any period of time would require an 
extended timeframe and increased amounts of funding. 
Furthermore, the likelihood of ever restoring H-Canyon after 
achieving standby mode is, at best, slim. The loss of human 
capital that is so crucial to the site's success would be 
incalculable.
    The Savannah River Site is the only location in the country 
that has an operational, large-scale facility capable of used 
nuclear fuel disposition. The site's capabilities include the 
processing of nuclear materials, plutonium and spent rod 
storage, tritium production and recycling, and nuclear 
forensics. The FBI [Federal Bureau of Investigation] forensics 
team also uses the national laboratory at Savannah River Site 
for homeland security purposes.
    The Savannah River National Laboratory also has significant 
expertise and capabilities that could be an invaluable resource 
in assisting situations like the current nuclear issue in Japan 
and other comparable nuclear or environmental challenges, both 
here and abroad.
    One last point I would like to make: South Carolina has 
lived up to its commitment, and now it is time for the Federal 
Government to live up to theirs. Commitments were made by the 
Federal Government to ensure that even as SRS [Savannah River 
Site] takes in new materials for processing, the site cannot be 
the final home for these materials. The important work at 
Savannah River Site transforms these relics of the Cold War 
into something that can be peacefully used in the 21st century 
environment.
    If H-Canyon is unable to process the aluminum-clad spent 
fuel currently stored or scheduled to be sent to L-Basin, there 
will be no disposition path within the complex. And all this 
material will be stranded. It would be a betrayal of the 
Federal Government's commitments to lower the operating 
capabilities of the site while leaving the radioactive 
materials behind. I trust that this committee will not allow 
that to happen.
    The entire mission at the Savannah River Site is vital to 
our national defense, our economy and our focus on energy 
independence.
    Congressional support for the fiscal year 2012 budget is 
critical to the overall success of the national security effort 
at SRS. I continue to urge this committee to protect the 
important work being done at Savannah River, and I thank you 
for your time.
    [The prepared statement of Mr. Duncan can be found in the 
Appendix on page 52.]
    The Chairman. Thank you very much. The thing that is 
interesting to me, as I think about the 435 districts around 
the country, is how much there is to learn from each Member 
about their districts. I have never heard of the Savannah River 
Site before. So I appreciate you coming and educating us about 
this.
    Does anyone--Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And, Mr. Chairman, I 
want to extend the invitation on behalf of Congressman Duncan 
and myself. We would love to have you come visit Savannah River 
Site.
    And it is really extraordinary. It is 350 square miles 
where nuclear preparations have been underway. It was called 
the Bomb Plant, and it is an extraordinary facility. It could 
not be replicated anywhere east of the Mississippi. But it is 
in place now. And you would really--I am going to--we will be 
working to get you there, and including Congressman Conaway, 
too. He needs to come visit.
    Mr. Chairman, I would like to thank my colleague and fellow 
South Carolinian, Congressman Jeff Duncan, for making the 
committee aware of these important issues to South Carolina and 
Georgia.
    I agree with Congressman Duncan that the committee should 
be focused on strengthening our nuclear threat reductions. We 
remain concerned that failing to secure weapons-grade nuclear 
materials will increase the chance of our enemies having the 
ability to acquire nuclear weapons.
    As Congressman Duncan promotes in his testimony, and as 
Secretary Gates has already stated, our Nation needs to 
maintain our aging nuclear infrastructure, both facilities and 
professional personnel. The Savannah River Site in South 
Carolina is a great example of the progress that can be made 
with proper resources.
    I want to point out that South Carolina has the perfect 
climate, that is, meteorological and warmly pro-nuclear, pro-
military citizens. Many of the people Congressman Duncan and I 
represent were victorious in the Cold War. When called upon, 
they helped defeat communism by manufacturing the ultimate 
deterrent for peace, nuclear weapons.
    I know firsthand of their commitment, because in the 1980s 
I was a personnel security hearing officer at the Savannah 
River Site. South Carolina and Georgia remain stalwart for the 
national defense missions at Savannah River Site, but we are 
concerned that the administration is closing down the unique 
national asset, H-Canyon, which to replicate would be $3.5 
billion. This is one of our current facilities critical to the 
disposition path for types of plutonium and highly enriched 
uranium.
    In the President's fiscal budget of 2012 the Department of 
Energy plans to reduce the operating costs of H-Canyon from 
$250 million to $150 million. This would result in a permanent 
loss of personnel talent and expertise, an outcome leading to a 
loss of a national asset for our nuclear complex.
    We can all look forward to working together to address the 
issues of nuclear proliferation, and I look forward to working 
with the committee and the full House on these capabilities to 
be maintained, especially H-Canyon.
    Thank you, Congressman Duncan.
    Thank you, Chairman.
    The Chairman. Thank you.
    Are there any further questions?
    Thank you, Mr. Duncan, and we will consider your request.
    We now recognize the gentleman from New Mexico, Mr. Pearce, 
for 5 minutes.

  STATEMENT OF HON. STEVAN PEARCE, A REPRESENTATIVE FROM NEW 
                             MEXICO

    Mr. Pearce. We appreciate the opportunity to address you 
today before you roll out this 2012 NDAA [National Defense 
Authorization Act].
    With our Nation engaged in two wars and now extending 
ourselves into Libya, it is time for us to look at the 
readiness and the strength of our United States military. The 
funding mechanisms that the NDAA moves forward must build the 
necessary long-term planning to tailor programs and mission 
support, as well as weapons, technology, supply, and 
development, to a rapidly changing world.
    Some ways that we have seen in our district the NDAA can be 
helpful are the things that I would like to talk about today.
    Before I get started, the Second District of New Mexico is 
home to White Sands Missile Range. It is also home to Holloman 
Air Force Base. We also are the home of the Waste Oscillation 
Pilot Project. It is the storage facility for nuclear waste. 
The Rocky Flats is now completely underground in New Mexico, 
all of the waste associated with that site, and that is in our 
district.
    We are also the site of the first and only decision made by 
the Nuclear Regulatory Commission in over 30 years, the nuclear 
enrichment facility in Eunice, New Mexico. And it is all 
private funding, but it was installed there with 95 percent 
approval of the people in that area. So our region is friendly 
to the military and friendly to the task of supporting the 
Nation.
    The first area that I would like to talk about is 
contracting. In White Sands, the training from Fort Bliss--and 
Fort Bliss has many of the ground troops--that training is 95 
percent done in New Mexico in my district, and yet, when the 
contracting goes, there is an imaginary line that exists by SBA 
[Small Business Administration] standards on the state line of 
Texas and New Mexico.
    So our residents see that our ground is taken up for 
training purposes, but they have very, very, little access--one 
contract in the last several years--because of this imaginary 
line that the SBA says we can't let people in New Mexico bid, 
because we are in Texas. So that is a constant source of 
friction.
    Another friction is the bundling, the wrapping. New Mexico 
firms are never going to be able to bid on $500 million 
contracts, but they could easily service the contracts on local 
bases. What happens is many times a contractor from another 
state, maybe on the East Coast, gets the contract and calls our 
guys to do the sub-contracting.
    And what that does is take away the overhead, the profit 
potential, in small businesses scattered throughout New Mexico, 
which is contributing a lot of surface area. So if you would 
look at the contracting processes, that would be very critical 
to support small businesses in our state and in our district.
    The second area that I would draw your attention to is Navy 
research and development. New Mexico is home to Magdalena 
Ridge, which in the end is the base of many types of science 
and investigation on different programs. They provide near-
liftoff point of impact tracking of missile tests for the U.S. 
Army. They play a dominant role in the space situation of 
Atlantis for the U.S. Air Force, the Department of Defense 
Space Command. They provide asteroid tracking and orbital 
projections. They track and characterize potentially hazardous 
near-Earth objects, and they have done that over the last 3 
years.
    The next area that the 2nd District of New Mexico is highly 
involved in is the Air Force Research Lab, which has been given 
DOD [Department of Defense] lead for the development of jet 
fuel from alternative oil sources. Fuel from algae is one of 
the most promising developments that is being looked at. That 
is centered in the 2nd District of New Mexico. They are looking 
to find alternative energy for power generation and 
transportation, especially aviation. And they are working on 
the algae fuels right now.
    Because petroleum is an algae derivative, the result of a 
drop in fuel that is the same fuel as JP-8, literally, and the 
things that we should concentrate on include the scale of algal 
mass production to billions of pounds a year, hundreds of 
millions of gallons of JP-8, we should be looking at how to 
refine the competing oil extraction technologies for low-cost 
production of standard commercial refinery feed stock, and 
then, thirdly, demonstrate the low cost modification of 
refineries to produce high-volume production of JP-8.
    The final area that we would look at is the focus of joint 
national and training experiment. In our district is a small 
town. It was a mining town, and it has been set aside now 
completely for research and development. Right now there is in 
Afghanistan a village that is using houses that New Mexicans 
used to live in. I am not sure exactly what that says, but 
different government agencies come there. Intergovernmental 
agencies come to train and perform experiments that give them 
better access, once they get to the field.
    The types of training that occur at the Playas Training 
Center are irregular warfare and WMD [weapons of mass 
destruction], new and emerging missions, emergency management, 
civil affairs and peacekeeping missions. So these are the four 
suggestions that, as I look at the jurisdiction of your 
committee, that it seems to be helpful for the Nation, but you 
don't do it does what you think of to help you, if you are able 
to look at these and move them forward.
    And so with that, I yield back the balance of my time.
    [The prepared statement of Mr. Pearce can be found in the 
Appendix on page 54.]
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Pearce, I thank you for raising this. This is actually 
something that has come up in my district as well at Joint Base 
Lewis-McChord, the contracting issue you refer to. The local 
contractors--and this is, you know, businesses in the building 
trades agree on this--are being excluded from many of these 
contracts by the national, regional, way that the Department of 
Defense is doing this. They are picking some set number of pre-
approved contractors that are then being moved all around the 
country, and really cutting off local contractors.
    And obviously that is a huge problem in terms of jobs in 
our local communities, but it is also questionable in terms of 
whether or not they are going to get the best work at the best 
price if they simply pre-approve a very small number of 
contractors picked primarily, it seems to me, for their 
breadth, not necessarily for the quality of their work or what 
they do, just so they can conveniently go, ``Well, we will pick 
this one and they can do the work in any one of 10 different 
states.''
    I think this is an enormous problem. And it is also going 
to create greater tension between the local community and the 
bases. You know, the bases are there and certainly they have 
very positive influences in all of our communities from an 
economic standpoint.
    They also place stresses on the infrastructure. And if you 
take away the economic bonus by bringing in outside 
contractors, and in many cases outside workers, and not giving 
the economic benefit to the region, I just think this, you 
know, creates tension that doesn't need to be created.
    Now, I don't fully understand how we can go at this, how we 
can change this, but I appreciate your raising the issue. It is 
something that I have been meaning to raise with the majority 
staff myself. And I would love to see if this committee can 
find some way to examine that contracting process so that it 
isn't so biased against local workers and local businesses. So 
I appreciate your raising this issue, and I hope we will look 
into it.
    Mr. Pearce. Mr. Chairman, if I might make a comment?
    An example of that was I was talking with a guy locally 
that makes radios and radio antennas, and he was called about 6 
years ago from the Department of Defense that said, ``Could you 
make me an antenna that you could put in your pocket like 
cigarettes and it would be that size and it would have these 
capabilities?'' And the guy was fiddling with his drawer and 
talking on the phone.
    And so, the contracting officer said, ``Can you do it?'' 
And he said, ``Yeah, I have done it right here.'' And he said, 
``Well, what the cost of it would be?'' And he said, ``Oh, 
approximately $1.50, maybe $3.00.'' And the guy said, ``You 
know our lowest bid up until now?'' ``No.'' He said, 
``$150,000.''
    And so, that is what we bump into all the time. And it 
makes your point, but thank you for that.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. On the Small Business Committee for a number 
of years now we have been addressing these problems. It started 
with bundling and the use of subcontractors that the prime is 
familiar with. We have a great deal of difficulty getting them 
to reach out.
    We are also very much concerned about what is called ``bid 
shopping.'' They will get a prime to join them in the bid, and 
then after they get the bid, they come back and say, ``Gee, 
times are tough. We really have to do this for less.'' And they 
may have gotten the bid because of the quality of the 
subcontractor, and now they beat them down, and then they go 
with another subcontractor.
    There are a lot of inequities and problems in this 
contracting. In the Small Business Committee we have been 
following that. Thank you for your reminding us that this is 
still a problem, and we will see what we can do from this 
perspective.
    Thank you.
    The Chairman. Thank you. Any other questions?
    Mr. Pearce. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Pearce.
    We now recognize the gentleman from North Carolina, 
Representative Shuler.

  STATEMENT OF HON. HEATH SHULER, A REPRESENTATIVE FROM NORTH 
                            CAROLINA

    Mr. Shuler. Thank you, Mr. Chairman.
    Chairman McKeon, Ranking Member Smith, distinguished 
members of the committee, thank you for the opportunity to 
testify before you today on an amendment on the National 
Defense Authorization Act.
    I come before you to speak in support of the language that 
may have profound effects on U.S. manufacturing, as well as the 
national security of our Nation. As we all know, Congress 
passed the Berry Amendment in order to protect the American 
industrial base during times of adversity and war.
    This amendment generally requires Defense Department 
contractors to use American manufactured components and 
materials in their products. However, because of the language 
added in 2008, some exceptions to the Berry Amendment have been 
created, allowing American manufacturers to use non-American 
components.
    My specific concern today is the exceptions for specialty 
metals that are critically being used in our national security. 
It is my belief that these exceptions and the outsourcing of 
manufacturing components, especially titanium components 
critical to aviation, are a hindrance to the American 
manufacturer and pose a very real national security threat.
    I understand that these exceptions were created in the 2008 
NDAA. They were honest efforts to expand trade and global 
capacity with our international allies. This intent led to a 
provision within Section 804 of the fiscal year 2008 National 
Defense Authorization Act. This amendment amended Section 2533b 
of Title 10 to provide new exceptions for procurement of end-
items containing specialty metals from American sources.
    By allowing original equipment manufacturers to procure 
end-items manufactured in accepted countries under agreements 
that allow foreign manufacturers to use any available raw 
materials to manufacture the end-items, it has had a hindrance 
on U.S. titanium manufacturers in a time of market expansion 
and defense procurement requiring titanium end-items.
    Because the foreign manufacturers are not subject to these 
same requirements, OEMs [original equipment manufacturers] are 
moving offshore suppliers and walking away from U.S. 
manufactured industrial base. The changes in Section 2533b are 
giving foreign competitors a 30 percent advantage on raw 
material prices. This reduces costs, has resulted in U.S. 
military engine fans and compressor blades being forged and 
machined overseas using Russian titanium.
    It is unconceivable to me that some of the most essential 
components of our Nation's military aircraft are being made in 
foreign countries with Russian materials. American companies 
are being forced out of the military manufacturing base because 
of offshore raw materials being used by competitors.
    With titanium demand on the rise, domestically owned and 
operated businesses capable of manufacturing medium and large 
fan blades will either go out of business or move offshore. 
Assessing the U.S. market will allow for a better picture to 
show that Section 804 affected the domestic titanium market.
    The House inserted a provision in their report accompanying 
their version of fiscal year 2011 of the National Defense 
Authorization Act, H.R. 5136, that required the Department to 
assess the U.S. titanium manufactured industrial base and 
report to the congressional defense committees. Even though the 
House provision was not included in the final bill, I urge you 
to follow your colleagues in previous Congresses to include 
this language.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Shuler can be found in the 
Appendix on page 56.]
    The Chairman. Mr. Bartlett.
    Mr. Bartlett. Thank you. You mentioned titanium. Russia, of 
course, produces about half the titanium in all the world. 
There is a new process called the Armstrong process, which I 
have been following for a number of years. It could produce, on 
a continuous basis, titanium at much lower costs than we are 
getting it from the Russians.
    And we have had trouble getting the attention of our 
military and our industrial base here to pursue this process. 
The problem that you present us with is a growing problem--that 
is, our industrial base is so diminished in this country that 
frequently now we have to go offshore for our materials.
    This isn't just a threat to our national security--rather 
to our military--it is a threat to our national security, 
because we now have a trade deficit of about $1 billion every 
12 hours. And this is just another indication of that, and 
hopefully, the military can kind of lead the way to bring some 
of this industry back to our shores.
    And I hope that your concern about this today will help us 
to move forward more quickly on the Armstrong process, which 
produces titanium at a continuous process, much lower costs 
than the Russians. Now they have a near monopoly on this around 
the world, which is what you are pointing out for us.
    Thank you very much for your testimony.
    The Chairman. Any further questions?
    Mr. Shuler, in the language that we put in our bill last 
year, we did not include the language you are talking about, 
because then we would have to negotiate it with the Senate. 
Instead, we put it in our report, which means then they will 
have to comply. So we will follow up and see what is happening 
on that report from the Department of Defense, and we will 
follow through on this.
    Mr. Shuler. Thank you. Thank you Mr. Chairman.
    The Chairman. I appreciate your bringing this point up. 
Thank you very much.
    I will recognize the gentleman from North Dakota for 5 
minutes, Representative Berg.

STATEMENT OF HON. RICK BERG, A REPRESENTATIVE FROM NORTH DAKOTA

    Mr. Berg. Thank you, Mr. Chairman. I will figure out the 
equipment first here. I want to thank you for the invitation to 
testify before the House Armed Services Committee regarding 
your national defense priorities. I would like to thank the 
committee for this opportunity.
    I would also like very much to thank all the men and women 
of the Armed Forces for their service to our country. I would 
be remiss if I didn't mention the often unsung heroes and 
heroines--the spouses, the families, the children of military 
personnel that stay behind in North Dakota when their spouses 
are deployed.
    In many ways it is harder for the families that are back 
home, really worrying about the unknown. They all have my 
profound respect and admiration for all they do for our 
country.
    I am prepared to offer a few proposals for your committee 
to consider as part of the National Defense Authorization Act 
for the fiscal year 2012. My brief testimony today is intended 
to provide the committee members with the opportunity to assess 
the congressional priorities in the conduct of U.S. defense 
policy that are not earmarked pursuant to House rule.
    Having two Air Force bases in my district, I have had the 
opportunity to interact with many airmen and women. And I 
understand the importance of providing a good quality life for 
our service men and women. I would first urge you to consider 
the quality of life issues.
    It is critical that the best interest of our married Air 
Force personnel are considered as part of the continued 
monitoring of and the proper implementation of the soon to be 
Air Force-wide policy of privatization for military family 
housing, which would affect many Air Force bases, including 
Minot and Grand Forks.
    Minot will turn over 1,700 military family homes and Grand 
Forks will turn over 800 homes to the privatization program. 
This proposal will provide both bases with a community center, 
clubhouse, indoor playground and storage facilities. In 
addition, some undesirable properties will be demolished.
    Furthermore, the President submitted a fiscal year 2012 
budget for the Minot Air Force Base that provides for 
construction of a new, 168-room, single occupancy, dormitory 
for young Air Force personnel that is up to Air Force-wide 
standards. It is important that we not only support our Air 
Force personnel, but their families as well. I fully support 
providing our military service men and women with the best 
quality of life possible.
    I would also like to discuss the technological advancements 
the Air Force is undertaking. As the Air Force moves to the 
21st Century, the implementation of new technologies and 
aircraft, such as the Raptor and Global Hawk, are key to the 
growing mission of the American Air Force.
    I have spoken with senior leadership at Grand Forks Air 
Force Base, and they have expressed support for three Global 
Hawks at the Grand Forks Air Force Base that are slated to 
receive it later this year. As bases like Grand Forks continue 
to expand their development and training for unmanned aircraft, 
access to these aircraft will be essential.
    Grand Forks will also benefit from the Battlefield Airborne 
Communications Node Mission, which they are set to develop this 
year. This beacon mission would entail the flying Global Hawks, 
which are forward deployed to military missions in regions such 
as Afghanistan. This aircraft would serve as an antennae, so a 
group of soldiers on one side of a mountain could communicate 
with another group on the other side of the mountain.
    This is accomplished by using the plane as a relay above 
the battlefield, where both groups emit a signal through the 
plane. The Grand Forks Air Force Base is quickly becoming an 
international leader in unmanned aviation. This is technology 
that holds enormous potential, not only for our Nation's future 
military, but also for agriculture and border security.
    Lastly, just this week I had the opportunity to work with 
North Dakota Air National Guard with regards to the flooding 
currently taking place in North Dakota. The North Dakota Guard 
and guardsmen across the country play a pivotal role in our 
military success, and it is important that we maintain their 
ability to answer the call of duty.
    I was happy to hear that four C-27J Spartan aircraft are 
scheduled to be delivered to the North Dakota Air Guard this 
year. Those plans will not only strengthen our security. It 
will also help play a crucial role when the Guard is called up 
to work on such operations as the current flood fight.
    As you consider the fiscal year 2012 National Defense 
Authorization Act, I would strongly urge you to support the Air 
Force continued development of these projects. I want to thank 
you for the opportunity to testify today.
    Are there any questions?
    [The prepared statement of Mr. Berg can be found in the 
Appendix on page 58.]
    The Chairman. Thank you.
    Anyone have any questions?
    Mr. Berg. That is okay.
    The Chairman. I have a comment.
    If you are not a member already of our unmanned--we used to 
call it unmanned vehicle caucus, it is now unmanned system 
caucus because it includes air, land and underwater--we would 
love to have you as a member of that caucus to share your 
expertise with us in these areas and also be available for 
other learning opportunities there, too.
    I have a nephew that flies unmanned vehicles, and he was 
one of the first group that were taken out of pilot training to 
put into training for unmanned vehicles. And they promised at 
the time that they would put him back in a cockpit, and he is 
enjoying it so much he is now training other pilots.
    We are now training more pilots for unmanned vehicles than 
for cockpit flying in the Air Force. So it is really, really 
the future.
    Appreciate you bringing your comments to us. We will be 
sure to look into all of these as we work forward on the bill. 
And thank you very much for your being here today.
    Mr. Berg. Thank you for your work, and I will be a part of 
the caucus.
    The Chairman. Great. Thank you.
    We now recognize the gentleman from Indiana, Mr. Carson, 
for 5 minutes.

 STATEMENT OF HON. ANDRE CARSON, A REPRESENTATIVE FROM INDIANA

    Mr. Carson. Thank you, Chairman McKeon, Ranking Member 
Smith, and thank you all for this opportunity to testify today.
    As you may know, my Indianapolis congressional district is 
home to the largest Rolls-Royce plant outside of the United 
Kingdom and is headquarters for the Defense North America 
operation. Our engine plant employs over 4,000 people on a 
range of programs, including the F-136 alternative engine, the 
vertical lift fan for the F-35 and engines for the V-22 Osprey 
and C-130.
    This plant, Mr. Chairman, employs highly skilled workers, 
including hundreds of engineers and scientists, the types of 
stable, well-paying jobs that support the central Indiana 
economy. On behalf of my constituents, I want to begin by 
thanking you, Chairman and Ranking Member Smith and many 
members of this committee, for their continual support of the 
F-136.
    The alternative engine program has taken a major blow in 
the 112th Congress. However, as we begin the fiscal year 2012 
authorization and appropriations process, I ask the committee 
to reauthorize the F-136 and allow this discussion to continue 
until both the House and the Senate can definitively continue 
or cancel the program.
    In this debate, many of us have parochial interests in this 
program. I don't want to downplay how important the 
continuation of the alternative engine is to my constituents. 
It is critical.
    But over the next several months, all of us, whether we 
have a plant in our district or not, are going to be asked to 
vote on defense authorization and appropriations bills that 
will significantly impact our national defense and national 
debt.
    Members of this committee know all about the lack of a true 
engine competition and the risks of building a single engine. I 
just want to focus on a few aspects of the F-136 that I believe 
have been overshadowed by the intense rhetoric surrounding the 
program.
    This is not just a debate about two engines or the relative 
cost of funding one program versus two. This is a debate about 
a fighter jet that is going to replace over 90 percent of our 
fighter force. The debate centers on how our decisions 
surrounding the transition will dictate the future of our 
defense industry and defense spending over the next several 
decades.
    Opponents frequently point to the fact that many of our 
fighter aircraft operate on only one engine. They also point to 
the current market share of GE [General Electric] versus Pratt 
& Whitney. These would be excellent points, if we were not 
talking about 90 percent of our fighter force.
    As this committee is well aware, many of our fighter 
platforms will be phased out over the next several years. Fewer 
platforms will operate on a sole-source engine and fewer will 
operate on GE engines. With this changing dynamic, it is 
unreasonable to determine the future of the F-136 by focusing 
on a structure that will soon or no longer exist.
    The facts are simple. The F-35 will make up over 90 percent 
of our fighter force. And without the F-136, Pratt & Whitney, 
the producers of a single engine will be responsible for 90 
percent of fighter engine production.
    GE and Rolls-Royce both have excellent records of quality 
and performance on military aviation. Yet, if they are not 
allowed to compete for future F-35 engine contracts, the GE and 
Rolls-Royce market shares will diminish, and their current 
expertise in fighter engine development will disappear.
    We often look at military programs strictly in terms of the 
dollars and cents expended each year. But we cannot forget 
that, over the last several decades, billions of dollars have 
gone to GE and Rolls-Royce for research and development. 
Canceling this program and cutting these companies out of 
future fighter engine production would be like throwing away 
these taxpayer dollars.
    Simply put, we would lose that expertise and may not get it 
back without billions in additional investments. It is true 
that small savings would be seen if we canceled the F-136 
today. But the American taxpayers have already invested over $3 
billion in this program, over 75 percent of what is needed for 
the engine to enter full competitive production.
    With just a small investment, we can bring competition to 
this $100 billion engine program. According to a Government 
Accountability Office historical analysis, the competition 
spurred by this relatively small investment could save up to 20 
percent over the next few decades. Savings like that are 
especially likely, given the fixed-price contract offered by GE 
and Rolls-Royce.
    While many of my colleagues were elected on a promise to 
reduce the deficit, we all need to remember that our debt 
problems will not be short-lived. It has taken decades to build 
this debt, and it may take many more years to eliminate it. We 
clearly need to do everything possible now to address our debt, 
but we cannot overlook billions in savings just to achieve 
small symbolic cuts today.
    Killing the alternative engine, eliminating thousands of 
jobs, adding to the unemployment rolls and foregoing 
significant future savings just does not make sense to the 
American taxpayers.
    Thank you, Chairman McKeon and Ranking Member Smith for the 
opportunity to speak, and I encourage all of you to reauthorize 
the F-136 alternative engine.
    Thank you, sir.
    [The prepared statement of Mr. Carson can be found in the 
Appendix on page 60.]
    The Chairman. Thank you very much.
    Do we have any questions?
    I don't think we will enter into a debate right now on the 
second engine. It is something that we have debated in the past 
and I am sure we will debate in the future. But I really 
appreciate your bringing these points up at this time, and it 
is obviously something we will be looking at very closely.
    Mr. Carson. Yes, sir.
    The Chairman. Thank you very much.
    Mr. Carson. Thank you, sir.
    The Chairman. We now recognize the gentleman from Georgia 
for 5 minutes, Representative Kingston.
    Is your mic on?

 STATEMENT OF HON. JACK KINGSTON, A REPRESENTATIVE FROM GEORGIA

    Mr. Kingston. It is great to be with you guys. I will skip 
what I just said. Three things that I want to testify on, basic 
ask for new missions for Fort Stewart, Georgia, Moody Air Force 
Base, and Kings Bay Naval Base.
    I have the opportunity of representing perhaps the largest 
military district in the country. I have four major 
installations. I have Townsend Bombing Range, 165th Guard Unit, 
the 117th and the 224th and the Federal Law Enforcement 
Training Center.
    I have 80,000 active duty soldiers, about 200,000 of its 
family. And that is probably about a third of my constituency, 
which is military or military related. I am proud to represent 
the 3rd Infantry Division, which, I believe, Colonel Gibson has 
some intimate knowledge of. I am not exactly sure about Colonel 
West, but I know that Mr. Gibson actually knew of him through 
some soldier friends back home.
    So we have the 75th Ranger Regiment there, Special 
Operations, the Air Squadron, the Night Stalkers, which, you 
know, are the Chinook units operating all over Afghanistan. We 
have Coast Guard. We have two Coast Guard cutters, 12 other 
boats. We have the MNST and Marine Reserves at Fort Stewart-
Hunter and at Kings Bay. So we have got military everywhere.
    The 3rd Infantry actually has won 4 out of the last 6 years 
the Army Community of Excellence, and the only reason why they 
did not win it the other 2 years is they weren't eligible to 
compete. We have an extremely pro-military constituency.
    Now, back in BRAC [Base Realignment and Closure], the days 
of BRAC, a recommendation was made to move a new combat 
battalion there. And that was later canceled, even though the 
city made about $74 million in infrastructure changes in 
preparation for a new battalion. But that did not happen.
    And the committee on which I serve, HAC-D [House 
Appropriations Committee--Subcommittee on Defense], actually 
put money in the Office of Economic Adjustment to help the town 
offset some of its losses because by the military, by Congress, 
by the Pentagon, we were told, ``Gear up, because a new brigade 
is coming.'' It did not happen.
    Now the President has determined to withdraw a heavy 
brigade combat team from Europe in 2015, and I would solicit 
your support on considering Fort Stewart as the new home for 
them. Fort Stewart has 280,000 acres. It is the largest post 
east of the Mississippi. And its impact area can accept live 
fire, including the multi-launch rocket system.
    It is close to the Port of Savannah and has one of the 
longest runways in the world. It is ready for business, because 
BRAC already has done the environmental impact studies. There 
is no land acquisition that is necessary. All that is already 
done. So if you put the new brigade there, it would be an easy 
fit at no additional cost.
    Moving on to the Air Force, Moody Air Force Base is in the 
thick of the worldwide fighting. They have been in Afghanistan, 
really, since almost 9/11; they went there in October.
    At Moody, we have combat search and rescue elements. We 
have security forces for base and A-10 squadrons, which are in 
Afghanistan. We have the C-130s and the HH-60s. These elements 
have deployed many times over and over again to Iraq and 
Afghanistan and complement each other.
    Their proximity to Fort Stewart and Hunter gives 
opportunities, which they are already capitalizing on, for some 
joint basing. I know that the Air Force is looking to procure 
the light attack arm reconnaissance aircraft or LAAR in fiscal 
year 2012, and we believe that Moody Air Force Base would be a 
good fit for that, and we would like your support in taking a 
good look at that.
    Also, moving on to Kings Bay Naval Base, as you know, there 
are two nuclear submarine bases in the country. One of them is 
in Camden County, Georgia, which I represent. Again, during 
BRAC there was a proposal, actually a BRAC recommendation, to 
move the submarines from Groton down to St. Mary's at Kings 
Bay, and unfortunately moving submarines out of Groton would be 
like moving football out of Green Bay.
    In the final analysis, Submarine Nation just would not 
stand it, but at the same time we have room, because there are 
18 berths out there, and we can move submarines down there. And 
just like Fort Stewart, they are ready for business. So we are 
hoping that we can get some more missions for Kings Bay.
    We have six of the SSBNs down there already, two of the 
SSGNs, and as well as a refit facility and Marines and Coast 
Guard standing by. So, we wanted to make a recommendation on 
that.
    And with that, Mr. Speaker, I will--I mean, excuse me--Mr. 
Chairman, I want to make one final plug--last week a bill, 
which I believe many of you have co-sponsored, Congressman 
Gomer and I introduced to say that in the event of a government 
shutdown, that the troops would still continue to be paid.
    We may have a government shutdown again. It may be in 
October, and it may be over the issue of appropriation bills. I 
think this legislation actually should be considered. It is 
still live. It is out there in the Senate. They have 70 co-
sponsors in the House. We have about 150 co-sponsors. I think 
it would actually sail through the House, if we could move it. 
And I certainly would like us to move it before the Senate 
does.
    So with that, I yield back. I will submit the rest of my 
testimony for the record, and I greatly appreciate the 
opportunity to be with you guys.
    [The prepared statement of Mr. Kingston can be found in the 
Appendix on page 62.]
    The Chairman. Thank you. And put me on that bill if I am 
not already on it, would you?
    Are there any questions of Mr. Kingston?
    Thank you very much.
    We will now recognize the gentleman from Virginia, my 
congressman when I am in town, Mr. Moran, for 5 minutes.

    STATEMENT OF HON. JAMES P. MORAN, A REPRESENTATIVE FROM 
                            VIRGINIA

    Mr. Moran. Thank you, Mr. Chairman, Ranking Member Smith 
and members of the committee. I have a larger statement for the 
record, but I know we want to facilitate this, so I am just 
going to talk about my highest priority.
    The Chairman. Your full statement will be included in the 
record without objection.
    Mr. Moran. I appreciate that, Mr. Chairman. My highest 
priority is also a very urgent one. There is a Department of 
Defense building that has been constructed at the intersection 
of 395 and Seminary Road inside the Beltway. If you drive 
within the Beltway on 395, you can't miss it. It is an enormous 
building.
    And consistent with BRAC, within a few months 6,400 people 
are to move into that building. There will be at least 3,800 
additional vehicles, but there have been no traffic mitigation 
measures put into place. Finally, just yesterday, the Defense 
Department notified Congress that it will reprogram $20 million 
for some short- and mid-term transportation improvements.
    And in the justification, they said, and I will quote: 
``The existing roadway capacities around the Mark Center 
development will be insufficient to accommodate the influx of 
new traffic in connection with the BRAC recommendation.''
    Well, finally, Mr. Chairman, there have been five studies 
that have shown that we are about to have chaos occur on 395. 
Now, this has consequence, not just to the military, but 
particularly to the 200,000 commuters that travel north in the 
morning to get into Capitol Hill, to get into the Federal 
office buildings, to go to work.
    There are thousands of staff, dozens of Members who live 
south of the Beltway. Mr. Wittman has probably tens of 
thousands of constituents traveling north every morning. I 
estimate that they will be subjected to a 1 to 2 hour delay 
every morning as a result of this new Department of Defense 
construction.
    The Army says that they think that if they take all their 
measures and everything works perfectly, it is only going to be 
an additional 20 minutes that this move will cause. Now, some 
people think an extra 20 minutes in what is already what seems 
like an interminable commute is a long time.
    I am confident they are wrong, that we are talking about 1 
to 2 hours. That is why this is an urgent top priority. Your 
committee has put in now for the last 2 years a cap on parking 
until the mitigation measures are in place. Now, in addition, 
the Army has said that with 2,200 people they will have met 
their BRAC requirement.
    We had a cap of 1,000 parking spaces. In other words, they 
can fill the building, they just can't take more than 1,000 
vehicles there, because 1,000 vehicles, if you spread over 3 
hours, 300 an hour, it could possibly accommodate that with 
only a, you know 10- to 15-minute delay for everyone else, even 
if it had to be a cap of the 2,200 that meets their mission.
    But 3,800 is going to create a situation where everyone 
commuting every day for decades to come, is going to wonder who 
let this happen and why? Now, once we get the transportation 
measures in place, we can lift the cap. It will be a delay for 
everyone, but at least it won't be this kind of extraordinary 
delay that will adversely affect everyone.
    So, what I am asking is for the committee to put the cap in 
the authorization that we have had in the prior authorization 
bills. And then we lift it as soon as the military and the city 
and the state have agreed to do an $80 million ramp from hot 
lanes that will go into the building. And when that is done, 
then we lift the cap, and we deal with the ramifications.
    But until these measures are in place, I think we owe it to 
those 200,000 commuters to give them some relief, because in 
fact when the construction takes place, it is even going to 
exacerbate the traffic problem. So that is my request. I know 
it is a local issue, but when it affects as many as 200,000 
people, I think it has some consequence for a lot of people.
    Thank you Mr. Chairman.
    [The prepared statement of Mr. Moran can be found in the 
Appendix on page 66.]
    The Chairman. Thank you. Are there any questions?
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman. So, just so I 
understand, I know there have been some studies on this. The IG 
[Inspector General] has looked at it. The Transportation 
Research Board has looked at it. What were their conclusions 
about what it would cost in terms of the transportation 
mitigations and how long it would take to get them in place so 
that this could even have a chance at working?
    Mr. Moran. It is a very good question. The immediate 
improvements, which would be to widen the exit ramp, that would 
be taken care of with the $20 million reprogramming that they 
have asked for. But it is still going to take 1 to 2 years to 
get that in place.
    The $80 million ramp that the state will pay for itself 
will take 2 to 3 years at the very least. Then there is 
another, probably $100 million or so, depending upon how much 
we can get from the state. I am not optimistic about that, but 
the Defense Department, I think if we had some leverage, would 
work with us and get the most reasonable number possible.
    You mentioned the Inspector General's report. They are 
looking into how this was allowed to happen in the first place, 
because the state has determined that there were a number of 
deliberately false assumptions that were put into their report. 
They assumed only 75 percent of the employees will go to work 
on any one day, even though the Army assumes over 90 percent 
will be at work any day.
    They sped up the traffic light timing so that they could 
show more cars coming through, and then they had three left-
hand turning lanes turning against a solid green light, which, 
as you know, can't happen. So a number of false assumptions 
were built into their report, and that is what the Inspector 
General is looking at.
    In the meantime, we have just got to figure out a way to 
delay the complete move until we can mitigate.
    Mr. Smith. So, you feel if you keep it to 1,000 cars and 
the people that would accommodate----
    Mr. Moran. Yes.
    Mr. Smith [continuing]. You know, you can mitigate going 
forward. Have you gotten a response from DOD yet about the 
impact of, I mean, limiting it to that and how it would impact 
the transfer?
    Mr. Moran. No. I don't. I just have the request that we got 
yesterday, and I think that will be approved. And so if we 
could even delay it for the 18 months until that $20 million of 
improvements are in place, that would help a lot.
    Mr. Smith. And I should point out, this is something that 
was in the House bill----
    Mr. Moran. Yes.
    Mr. Smith [continuing]. Last year when we got it out. 
During the madness of trying to get it in NDAA at the end of 
last year, it came out. But it is something this committee has 
supported before and the House has supported before, so.
    Mr. Moran. That is correct. Thank you.
    Mr. Smith. Thank you Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you Mr. Chairman. Mr. Moran, thank you 
so much. I couldn't agree with you more. This is going to be a 
significant issue, much more significant than I think anybody 
dreams of in what will happen in that corridor. And it is a 
tough enough commute coming up that corridor now.
    I want to go back. In last year's NDAA the 1,000 parking 
space cap was there. And were there provisions in there to say 
that that cap would be in place until such time as the $20 
million in mitigating other traffic accommodations would be put 
in place? I am assuming that that is in there, but what also 
about this should we consider with the $80 million project that 
Virginia is putting in place?
    It seems like to me we need to have a sequential, 
thoughtful way to make sure we transition if we are going to go 
from 1,000 spaces to the $20 million improvement, make sure we 
don't get out in front of the $80 million improvement so we 
have a long-term vision about how this is going to transition 
with minimal impact on the traffic in that area.
    I may want you to comment on that a little bit.
    Mr. Moran. It is a very good point, Mr. Wittman, because I 
do think that while the construction is going on for the $80 
million project, that is going to cause further delay, 
exacerbate the situation. So it seems to me the best thing to 
do might be to have the Pentagon analyze the difficulty of a 
delay for other commuters and just exercise their judgment when 
we can lift the cap.
    We will know how bad the delay is as soon as they start 
moving. And then, perhaps, we could lift it in, you know, 
sequence. For example, once the $20 million is in, maybe 2,000 
vehicles. Once the $80 million ramp is in, then completely lift 
it. I think that would probably be the most rational way to 
deal with it.
    Mr. Wittman. Okay. Very good.
    And in the language, and you will have to refresh my 
memory, the language from last year, were there conditions in 
there to allow some mitigation in case the 1,000 space 
limitation still creates problems? In other words, I want to 
make sure there is flexibility there where if the 1,000 creates 
a problem that they are forced to be able to take up that 
issue, so it doesn't get kicked down the road?
    Mr. Moran. Yes, there wasn't, Mr. Wittman. You know, I 
think we are going to have to accommodate at least 1,000 people 
using that building. We can't leave it completely empty.
    Mr. Wittman. Sure.
    Mr. Moran. And no matter how effectively they might figure 
out a way to get people to drive, for example, to the Pentagon, 
take buses back and so on, we are still going to have at least 
another 1,000 vehicles coming into that one site.
    Mr. Wittman. Okay. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Moran. Thank you, Mr. Wittman.
    The Chairman. Any further questions?
    Well, thank you again----
    Mr. Moran. Thank you, Mr. Chairman.
    The Chairman [continuing]. For bringing this to our 
attention. And we will continue to look at it as we go through 
the writing of the bill.
    Mr. Moran. Thank you.
    The Chairman. Thank you very much.
    We now recognize the gentleman from Vermont, Mr. Welch, for 
5 minutes.

  STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE FROM VERMONT

    Mr. Welch. Mr. Chairman, thank you very much. And members 
of the committee, thank you.
    I am here to talk about something to provide for the well-
being and welfare of returning troops. And I do that with great 
humility, because there are no Members of Congress more than 
the members of this committee who are acutely sensitive to the 
needs of our men and women in uniform.
    What I am here to talk about is something that is based on 
Vermont experience. And I have worked closely with our adjutant 
general with the Vermont National Guard, so I feel I have some 
qualifications, even though I don't have your long history, Mr. 
Chairman, and the intimate involvement that the members of your 
committee have.
    We have 1,500 Guard members just back from Afghanistan, 
and, as you know, they face very significant challenges. And 
one of the things that our adjutant general, I think, acutely 
appreciated was that those soldiers who are in the battlespace 
have unit cohesion. They have each other to rely on. And it 
just binds them together, and they get through whatever 
adversity it is that they face.
    And what he has found is that in many cases it is tougher 
for them when they come back home than it was than when they 
were there, because suddenly they are isolated. And of course, 
Vermont is a very rural state.
    Mr. Gibson, you know, we share a border.
    But those soldiers get home and instead of having that unit 
cohesion and that clarity of mission and that real sense of 
purpose, things that motivated them to go into the service in 
the first place, they are really on their own.
    And they come back to a changed situation. Their family 
situation may have changed a bit. The family has had to make 
adjustments to be alone without the breadwinner. And it has led 
to real difficulty--mental health issues, PTSD [post traumatic 
stress disorder], physical health issues.
    And what our adjutant general has found is that many of our 
soldiers--all of our soldiers, really--they are very proud 
people. So admitting you have, say, a mental health problem, 
taking that step to get help to act on it, that is really hard 
for them to do. And it is not like they are with their buddies 
anymore where they can talk about it and say, ``Hey, Peter or 
Jim, you know, let us walk down and get a little help here.''
    So the program that has been incredibly helpful is this 
outreach program, where oftentimes veterans, folks who have 
credibility, go to the home of the soldier and check in and 
make it easy for them. We have got cases where it has resulted 
in a person who is suicidal getting help he needed and getting 
into long-term therapy.
    It helped somebody who was not dealing with their financial 
situation avoid an eviction, because they sat down and got the 
help that they needed. It obviously has helped in many cases 
just dealing with the stress in the marriage.
    So it is a modest amount of money, considering everything 
that is involved. But the help that is offered is at that point 
when they really need it and when they are really on their own. 
And it tends to be offered by another veteran, who has that 
credibility to speak to a proud soldier back from the 
battlespace, to help them make a good decision.
    And this program has helped hundreds of Vermonters. And 
again, I say this because I have talked with some of the folks 
who are doing the casework. You know, I have talked to our 
adjutant general, Michael Dubie. And he is just so strongly 
supportive and committed to this program as something that is 
helping our folks make that readjustment back home that is in 
many cases--I don't know if this sounds odd; I don't think it 
is does--harder for our soldiers to deal with on a personal 
level than dealing with the stress of being in the battlespace.
    Now, we have got a lot of help on this. We have been 
circulating a letter. Some of the committee members here have 
signed it. But essentially what we are looking to do is get 
funding for this program that is working in Vermont and some 
other states. Several other states have done this. And some of 
the Members here who have joined me in this effort are Frank 
LoBiondo, John Runyan, who was just here, Mike McIntyre, Larry 
Kissell.
    The National Guard Bureau tells us the cost of expanding 
the outreach program around the country in 54 states and 
territories would be about $72 million. So the question--I 
mean, tough budget times, you all are dealing with that, I 
know--but I can just say as the Congressman from Vermont, where 
we have bipartisan support for our men and women in uniform, 
the unanimous verdict, based on our experience with this 
program, is that it is really, really making a difference for 
our men and women coming back from the battlespace.
    So it is easy for me to sit here and ask you to do 
something. I suspect this is something that if there was any 
way budget-wise you could get from here to there you would want 
to do, because it is totally bipartisan. But it has made a 
difference in Vermont in saving lives, in the mental health. 
And it is practical and on the ground and driven by our 
veterans.
    So I really appreciate you allowing me to come here and 
make this case on behalf of this outreach program. And anything 
you can do, I think the Nation would be grateful.
    Thank you.
    [The prepared statement of Mr. Welch can be found in the 
Appendix on page 69.]
    The Chairman. Thank you very much. I appreciate you 
bringing that up. And the comment about doing it in a 
bipartisan nature, that is a very strong culture in our 
committee.
    Mr. Welch. I know that.
    The Chairman. We think about the troops, not so much about 
Republican and Democrat.
    Mr. Welch. You know, we need more of that in this Congress, 
Mr. Chairman. You may have to lead the way.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And Mr. Welch, I agree with you. I think it is very 
important and I have heard many, many stories out of California 
and other places of how that particular--in many cases it is a 
veteran mentor, really, that steps in to be a guide. A lot of 
it has to do with preparing someone for either the job they had 
before, which has changed and they have changed, so that there 
is----
    Mr. Welch. Right.
    Mrs. Davis [continuing]. Some difficulty there, but also, 
for the opportunities that may be out there that, you know, are 
a little difficult I think to see when you come back from a 
battlespace.
    My question is really about the role of the state and 
whether Vermont participates in that--the National Guard, so of 
course there is an interest there--and whether or not, as we 
look at this funding, there should a state match? Or how 
realistic that is in Vermont? And where do you think that offer 
is?
    Mr. Welch. Well, you know, I think that is pretty 
reasonable. And I suspect, you know, Vermont has a tough budget 
situation, but I know from experience the state has stepped up 
and provided assistance, emergency funding that is available to 
the adjutant general to deal with some of the emergencies like 
fuel assistance. You know, families are left behind, the 
husband or the wife is away. They have got one breadwinner 
instead of--well, it is tougher financially. They are just 
juggling a lot.
    And the Vermont legislature has actually appropriated funds 
that were made available for the discretionary use by the 
adjutant general to help in emergencies. So I think there would 
be some support. I think it is a reasonable request. You know, 
this is the Guard. There is some significant state commitment. 
We are limited, but I would accept as reasonable your 
suggestion.
    Mrs. Davis. Looking at some kind of a match perhaps?
    Mr. Welch. Yes.
    Mrs. Davis. Okay.
    Thank you.
    The Chairman. Mr. Gibson.
    Mr. Gibson. Thank, Mr. Chairman.
    I want to associate myself with the remarks from my 
colleague right now.
    Mr. Welch. Well, you know more than I do about this.
    Mr. Gibson. Well, I just want to say that your approach is 
spot on, based on my experience, that, you know, really it is 
without each other there is a sense of isolation----
    Mr. Welch. Yes.
    Mr. Gibson [continuing]. That really overwhelms an 
individual, who is trying to come to terms with, in some cases, 
unspeakable acts that have occurred in theatre. And so, you 
know, right now in our district we have vets helping vets in a 
volunteer way. But I am very interested in seeing perhaps what 
more could be done by pulling across the state and Federal 
effort.
    Maybe as you point out, I don't think it would need to be a 
lot of money, but maybe an administrator to help with this in 
terms of logging in phone calls and making sure no one falls 
through the cracks. So I would like to be on this effort----
    Mr. Welch. Oh, great.
    Mr. Gibson [continuing]. And just ask that we can have our 
staffs coordinate.
    But I just want to say that the approach of a community, 
the community of those who served, those who are interested in 
helping those who have served, really, there is no way to 
quantify that. And it helps get through the very toughest of 
times and build a foundation of emotional support that then can 
propel one for full reintegration. So thank you very much.
    Mr. Welch. Thank you, Mr. Gibson. And I look forward to 
working with you very much.
    Mr. Gibson. God bless you. Thanks.
    And I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. We are already noticing disturbing trends 
among our returning warfighters. Suicides are up. Homelessness 
is up. Thank you very much for reminding us that we need to 
have renewed attention to this. We owe an awful lot to them. We 
need to make sure they aren't falling through the cracks. Thank 
you.
    Mr. Welch. Thank you, Mr. Bartlett.
    The Chairman. Thank you very much.
    Mrs. Davis.
    Mrs. Davis. Mr. Chairman, if I may, just very briefly, 
because I think that the First Lady and Dr. Biden have 
undertaken an extraordinary effort to reach out to communities 
in addition to interagency cooperation, if you will, to say 
something very special, I think, to our military families, that 
they are valued and that they are not going to be forgotten and 
in fact there is going to be a large effort to respond to them 
as well.
    And so I just wanted to mention that, because I think we 
are going to see some differences in terms of the way 
communities are going to be responding. And I think Vermont 
would certainly benefit from that, but it is also very 
important for all of us to in our own way, I think, as Members 
of Congress, to seek out on our Web sites--there will be newer 
Web sites coming up--that we can all make certain that our 
constituents are very aware of those activities. So that would 
fit into your concerns as well.
    Thank you.
    Mr. Welch. Right. Thank you.
    The Chairman. Also, I had a meeting, last week I believe it 
was, with Mrs. Petraeus. And she has taken on an assignment, a 
new organization that she will be working outreach to help 
military families, military personnel. She might be another one 
that you might talk to.
    There are lots of people that really want to----
    Mr. Welch. Right.
    The Chairman [continuing]. To help--so much different than 
during the Vietnam war time. It is amazing how well, whether 
people support the war effort or not----
    Mr. Welch. Right.
    The Chairman [continuing]. How well they have supported the 
troops.
    Mr. Welch. Yes, and actually, I think your committee with 
its bipartisan approach on that, Mr. Chairman, is making a big 
contribution. And we really do, obviously, need to sustain 
that. And if your example could spread throughout Congress, I 
think we would be the better off for it.
    The Chairman. Thank you very much.
    We will now recognize the gentleman from Kansas, Mr. 
Pompeo, for 5 minutes.

  STATEMENT OF HON. MIKE POMPEO, A REPRESENTATIVE FROM KANSAS

    Mr. Pompeo. Thank you, Mr. Chairman. Thanks for the 
opportunity to testify here this morning. My request is a bit 
different, but nonetheless, I think, very important.
    Father Emil Kapaun from Wichita, Kansas, was a brave and 
honorable soldier, a cavalryman like me, and I ask that into 
H.R. 437 there be language inserted to permit a waiver of the 
time limit for the granting to Father Emil Kapaun of the 
Congressional Medal of Honor.
    In 1940 Father Kapaun was ordained in Wichita, Kansas. He 
served in World War II and then was discharged. And in 
September of 1948, he decided he wanted to go back and serve 
again, and he served amazingly during the Korean war.
    Shortly after the invasion in 1950, he entered the cavalry 
and followed his regiment into battle at the Battle of Unsan on 
November 1st and 2nd. And according to the report, as the day 
wore on it became apparent that the battalion's position was 
hopeless. Though the able-bodied men were ordered to escape, 
Chaplain Kapaun elected to stay behind with the wounded in the 
finest tradition of military leadership.
    As he cared for his men, he noticed a wounded Chinese among 
the group. And as the Chinese infantry approached the American 
position, Chaplain Kapaun convinced the officer to negotiate a 
safe surrender for American forces. Many Americans were taken 
prisoner that day, and the prisoners, all of them American, 
were weak from extreme exertion and malnutrition.
    They were forced to march from camp to camp. Nonetheless, 
Chaplain Kapaun continued to lead by example, constantly 
encouraging his men and refusing to take a break from carrying 
stretchers for the wounded. He risked his life by sneaking out 
after dark in order to forage for food and rations for his men. 
He was recaptured each time.
    As winter set in, it got worse. Father Kapaun ultimately 
was transferred to a filthy, unheated hospital, where he died 
alone. He repeatedly risked his own life to save what were 
hundreds of Americans. His extraordinary courage and leadership 
inspired thousands and continues to do so in south central 
Kansas and across America today.
    As a result of his efforts, he was awarded posthumously the 
Distinguished Service Cross on August 18, 1951; and in 1993 he 
was named a ``Servant of God'' by the Catholic Church, which is 
the first step towards Father Kapaun's canonization. We in 
Kansas admire Father Kapaun a great deal. I think America ought 
to honor him, too.
    As the committee knows, the Medal of Honor recommendation 
must be submitted within 2 years. We are after that timeline. 
That is the reason for my request that we insert language into 
the NDAA which would permit a waiver. I would ask that there 
would be entered into the record a letter from the Under 
Secretary of Defense, Mr. Stanley, who has agreed that this 
would be appropriate.
    [The information referred to can be found in the Appendix 
on page 73.]
    The Chairman. Without objection, so ordered.
    Mr. Pompeo. Thank you.
    The Chairman. That would be with your testimony.
    Mr. Pompeo. Thank you very much, Mr. Chairman.
    This would be a great outcome for America, for Father 
Kapaun, for the United States Army to honor Father Kapaun in 
this way. And I would ask for your support to have this 
language inserted, as it has been previously, in the NDAA. 
Thank you very much for your time.
    [The prepared statement of Mr. Pompeo can be found in the 
Appendix on page 71.]
    The Chairman. Thank you. Thank you for bringing that to our 
attention. And we will continue to look at that as we move 
forward on the bill.
    Mr. Pompeo. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    And now we will recognize the gentleman from Illinois for 5 
minutes, Mr. Kinzinger.

    STATEMENT OF HON. ADAM KINZINGER, A REPRESENTATIVE FROM 
                            ILLINOIS

    Mr. Kinzinger. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to come out and express our 
concerns or thoughts on various aspects.
    I have just a couple of quick issues I want to bring to the 
committee's attention. I am an Air Force pilot. I do it 
currently as a reservist in the Air National Guard. I fly the 
RC-26. That is something I am going to talk about in a second.
    But one of the things I have noticed is, I guess, something 
that has been great for a number of years is the Air Force 
flight suit and the functionality of it. I heard recently, 
actually in November of 2010, that the Air Force issued a 
contract for $100 million for the flight suit redesign.
    I know it was asked not that long ago of the Chief of Staff 
of the Air Force if that was still at play. The Chief of Staff 
stated that in fact the Air Force is not going to be in the 
business of redesigning the flight suit. Indications we have 
gotten, however, is that that is continuing on path, so that is 
something I want to bring to the attention.
    I think it is important to know that this is not a flight 
suit specifically for the new F-35 in the requirements, but 
instead it really seeks to integrate various aspects of what is 
already functional--flight suit, the anti-G suit, which is 
already good for up to over nine Gs for a pilot in that 
environment.
    And while the goal of increased comfort and integrated 
protection for the pilot is laudable, I don't believe that this 
is urgently needed by the Air Force, particularly in this 
current budget environment.
    Two improvements over the current system mentioned--the 
anti-improvement--or the increase in the G-suit capabilities, 
and they also say, a long-term cost savings in the integrated 
model. I believe that if there is an increased need, a new G-
suit in and of itself may be something worthy of this committee 
to look at for redesign.
    But I always find it kind of hard to buy into the argument 
that a redesign of a $100 million of a flight suit worn by a 
few 10,000 people or so is actually a cost savings measure in 
the long run. So that is something I wanted to bring to the 
attention of the committee.
    The other thing I want to talk about is the aircraft I fly. 
It is the RC-26. The RC-26 is a relatively inexpensive piece of 
equipment for intelligence, surveillance, and reconnaissance. 
The inexpensive nature of it is a great thing for our country. 
It is a bad thing for the RC-26 in that it stays very, very low 
on people's radar. It is inexpensive.
    It originally started out as a counter-drug mission, and 
that is what it was solely used for. But within the last few 
years, it has been plucked from that mission and integrated 
into our operations in Southwest Asia, to great avail. It has 
actually been very successful. The customers of this aircraft 
say nothing but very great things about it.
    In the process of that and it becoming useful, one of the 
bad parts of that is one of the most deployed assets currently 
in the United States Air Force and in the Air National Guard 
with pilots and equipment being deployed at a record and rapid 
pace.
    And we are also sitting right now on potentially another 
deployment to another part of the world, which I can't 
necessarily elaborate on here, but it would add even more 
stress. And the folks of the RC-26 are very happy to do it.
    One of the concerns, however, is since it is low on the 
totem pole as far as funding goes--as far as being on the 
radar, I guess, is a better way to put it--you have people not 
only being outstretched, there is no real steady stream of 
funding for the RC-26.
    It was originally part of counter-drug, so that counter-
drug funding is an issue as we go forward. And then as it is 
chopped over to missions in Southwest Asia, it is kind of a 
piecemeal together string of funding. As a result we have seen 
a lot of people every day, in essence, being threatened of 
having their long-term orders taken away. There has been a 
threat of the funding stream.
    And I think this is a very important mission not just for 
what we are doing in Southwest Asia, but stateside it provides 
a continued counter-drug force, which I think is important. But 
most importantly, this is important for its ability at homeland 
defense, the intelligence, surveillance, reconnaissance side of 
this in homeland defense, responding to whether it is a 
terrorist incident.
    In my unit nearby is Milwaukee and Chicago, also St. Louis. 
So it can be overhead with real-time surveillance at a 
terrorist incident. It also provided very strong surveillance 
and reconnaissance for Hurricane Katrina and Hurricane Ike. I 
was personally involved in a mission when Hurricane Ike hit 
Louisiana and hit the coast, providing real-time battle damage 
assessment and search and rescue operations.
    So I think this is a very good program for our country. I 
would just ask the committee to look at solidifying the stream 
of funding, solidifying where it gets its money from so that we 
are not constantly in kind of a swap back and forth. And again, 
the fact that it is so inexpensive is kind of its big enemy, 
because it stays low on the radar. So I would just ask of the 
committee to continue to look into that.
    And finally, just quickly, I would ask the committee to 
continue to look at the Air Force's plan for rolling out the F-
35, which I am very supportive of the aircraft and the mission 
it will provide. We have seen recently in some of the rollout 
plans, I think, the Air National Guard being kind of not 
utilized to the extent it should be in the rollout of the F-35 
mission.
    So I won't elaborate too much into that, except to say that 
is something that I would ask also to stay on your radar.
    So with that I will see if you have any questions or yield 
back.
    [The prepared statement of Mr. Kinzinger can be found in 
the Appendix on page 74.]
    The Chairman. Questions? Thank you for bringing that to our 
attention.
    Mr. Kinzinger. Thank you.
    The Chairman. We have taken notes and we will look into 
that as we move forward. Thank you very much.
    We now recognize the gentleman from Texas for 5 minutes, 
Representative Carter.

   STATEMENT OF HON. JOHN CARTER, A REPRESENTATIVE FROM TEXAS

    Mr. Carter. Thank you Mr. Chairman and members of the 
committee. I appreciate you allowing me to testify here today. 
I am before you today to respectfully request that the House 
Armed Services Committee again consider incorporating the Fort 
Hood Victims and Families Benefit Protection Act into this 
year's National Defense Authorization Act.
    That presently references H.R. 625. This was in the last 
version of the NDAA, but unfortunately the language was 
removed, along with some other very worthy language, in a last-
ditch effort to get it passed. I will remind you of something I 
am sure you already know, that Fort Hood has deployed more 
troops into the overseas theater of combat since 9/11 than any 
other U.S. military installation.
    They have also suffered the most combat casualties in 
Operation Iraqi Freedom and Operation Enduring Freedom. The 
terrorist attack that rocked Fort Hood on November 5, 2009, 
resulted in the deaths of 13 service members and one DOD 
civilian employee, as well as 32 wounded.
    Recently the incident was correctly labeled the deadliest 
terrorist attack within the United States since September 11, 
2001, by the Senate Committee on Homeland Security and 
Governmental Affairs.
    The language of the Fort Hood Victims and Families Benefit 
Protection Act would deem the Fort Hood attack for the purposes 
of all applicable laws, regulations and policies to have 
occurred in a combat zone during a contingency operation and at 
the hands of a terrorist or enemy of the United States.
    In so doing, this legislation would afford the victims of 
the Fort Hood attack, which include both troops and civilians, 
the very same benefits as service members wounded or killed in 
combat zones, or as applicable DOD civilians wounded or killed 
in contingency operations or terrorist attacks.
    One impact of these provisions does not require, but makes 
eligible--and I want to emphasize does not require but makes 
eligible--for the Purple Heart and comparable civilian awards 
those service members and DOD civilians wounded or killed in 
the Fort Hood attack, to be awarded at the discretion of the 
Secretary in accordance with the Executive orders.
    This doesn't change the existing Purple Heart in any way. 
As it stands, those killed or wounded in the Fort Hood attack 
by a homegrown, Islamic extremist will not necessarily receive 
the same benefits as their deployed counterparts who are 
wounded or killed merely because this attack took place on 
United States soil rather than in a declared combat zone such 
as Iraq or Afghanistan.
    And let me tell you that in talking with people who were in 
the room, and I have talked to numerous people who were in the 
room, the perpetrator in this instance sought out green suits. 
He sought out soldiers to shoot. Almost everyone acknowledges 
that with the possible exception of the man who was killed, 
which he may have had some alternative reason for shooting that 
person, but other than that, he was seeking out soldiers to 
kill in this situation at Fort Hood.
    So I would argue that he viewed this as a combat mission on 
his behalf to attack those who were unarmed, but in uniform and 
then were being processed onto one of the theaters that we are 
fighting in Iraq and Afghanistan. So I think there is a solid 
argument to be made that the intent of the perpetrator was to 
be involved in killing soldiers on behalf of the effort of 
those we are in combat with in the combat zones.
    And therefore, I think it would be appropriate, especially 
in light of the fact that we provided these benefits to the 
victims of the
9/11 attack at the Pentagon, that a precedent is set there for 
instances like this.
    And quite honestly for one individual, he did some pretty 
major damage to not only the lives and the bodies of individual 
soldiers, but he also did major damage to the morale of the 
United States Army, because I can tell you of an instance at 
the hospital when I was there, where one of the nurses took me 
aside and said she had trained with Australian nurses who she 
was working with in Iraq, and they had called her and said it 
was having an effect on Australian troops that someone could be 
killed in a place where they are supposed to be safe as part of 
an attack from the people they are fighting.
    So, I would hope that you would consider to place this in 
the NDAA this year so that we can get these benefits for these 
soldiers and these civilians, which I think clearly was injury 
or death in what I would argue is an extension of the combat 
zones.
    And I yield.
    [The prepared statement of Mr. Carter can be found in the 
Appendix on page 76.]
    Mr. Bartlett. Some will argue this would set a precedent. I 
think that would be a very appropriate precedent to set, thank 
you.
    Mr. Carter. Thank you, Mr. Bartlett.
    The Chairman. It sounds like the precedent is already set. 
Thank you very much, Judge. We will look at that as we move 
forward on writing the bill.
    Mr. Carter. Thank you Mr. Chairman.
    The Chairman. Thank you.
    We now recognize the gentleman from Arkansas for 5 minutes, 
Mr. Crawford.

 STATEMENT OF HON. ERIC A. ``RICK'' CRAWFORD, A REPRESENTATIVE 
                         FROM ARKANSAS

    Mr. Crawford. Thank you, Mr. Chairman. Good morning and 
thank you, Members. I appreciate the honor of addressing you 
this morning.
    And I thank you for all that you do to preserve the 
security of our great Nation and for allowing me the 
opportunity to testify regarding recommended explosive ordnance 
disposal [EOD] priorities for fiscal year 2012, National 
Defense Authorization Act.
    As none of the services have a three-star EOD flag officer 
with the legislative affairs staff, it is my honor to represent 
the interests of this critical component of our fighting force 
in their stead. I myself served in the Army as an EOD tech, and 
so it is a great honor for me to represent these individuals.
    Explosive ordnance disposal or EOD soldiers are the 
military's preeminent team of explosives experts, warriors who 
are properly trained, equipped and integrated to attack and 
defeat explosive and associated insurgent networks across all 
operational environments.
    The military's EOD mission is to defeat global improvised 
explosive device, or IED, chemical, biological, radiological 
and nuclear, CBRN, and high-yield explosives and WMD, weapons 
of mass destruction, threats.
    The EOD warrior protects our military and innocent 
civilians from explosive threats and supports maneuver forces 
by providing relevant and ready explosive experts in full-
spectrum military operations, joint and interagency operations, 
and supports civil authorities in support of national security 
objectives.
    These EOD technicians do this task at great personal peril. 
Quoting from Army regulations, ``There are no safe procedures 
for rendering safe and disposing of unexploded ordnance, IEDs, 
devices or other explosives--merely a procedure that is 
considered the least dangerous.'' That comes from Army 
regulation 7515 policy for explosive ordnance disposal.
    EOD forces have proven to be game changers in attacking and 
dismantling terrorist cells and associated networks. EOD forces 
will continue to be indispensable key enablers of our combatant 
commanders for the foreseeable future to include during 
overseas contingency operations, counter-insurgency, stability 
and counter-terrorism operations, building the capacity of 
partner nations and routinely conducting homeland defense EOD 
missions in support of civil authorities.
    The EOD warrior is the culmination of the best tactical and 
technical training in the Army and civilian academia can 
provide. He and, yes, she, are trained from the first day to 
manage risk in all operations.
    The EOD professional performs the duties of locating, 
positively identifying, rendering safe, exploiting together 
technical intelligence from first seen ordnance and IEDs, and 
disposing of both foreign and domestic conventional, chemical, 
biological and nuclear ordnance commonly referred to as weapons 
of mass destruction, or WMD.
    This includes IEDs, whether detonated by a victim, 
initiated by an insurgent remotely, transported by large 
vehicles, or worn by a homicide bomber.
    They routinely work in the shadows during very important 
personal protection support activity missions in support of the 
Department of Homeland Security's Secret Service and Department 
of State Bureau of Diplomatic Security, and without fanfare 
render support to the Department of Justice's Federal Bureau of 
Investigation and Bureau of Alcohol, Tobacco, Firearms and 
Explosives.
    It is vital that we continue to preserve the rebalanced EOD 
force structure and maintain our EOD technical chain of command 
and control structure and full-spectrum capabilities to ensure 
success in a wide range of contingencies as directed by the 
2010 Quadrennial Defense Review and specifically emphasized in 
Homeland Security Presidential Directive 19 entitled, 
``Combating Terrorist Use of Explosives in the United States 
and Its Implementation Plan.''
    EOD mission competencies and capacities led by EOD 
qualified commanders at the group and battalion levels of 
command will be essential for defeating these enduring 
explosive ordnance and other asymmetric threats and future 
irregular warfare challenges.
    I can't help but wonder how many of the 4,662 killed in 
action and over 42,000 wounded in action military personnel 
from Operations Iraqi and Enduring Freedom could have been 
prevented, had we pushed to revitalize Army EOD force 
capabilities and capacities earlier to counter the enemy's use 
of IED weapon systems.
    Today I am proud to wear the distinctive unit insignias of 
the Army's 52nd, 71st and 111th Ordnance Groups EOD in 
recognition of their extraordinary service and contribution for 
preserving the security of our great Nation.
    Colonel Thomas Langowski's 52nd EOD Group home stationed at 
Fort Campbell, Kentucky, is currently deployed in Afghanistan 
as the counter-IED Coalition Joint Task Force-Paladin. Colonel 
Jose Atencio's 111th EOD Group recently returned home to 
Opelika, Alabama, from duty as the counter-IED Coalition Joint 
Task Force-Troy in Iraq. And Colonel Leo Bradley's 71st EOD 
Group is resetting at Fort Carson, Colorado, from a recent duty 
as CJTF-Troy and is training his soldiers for redeployment to 
Afghanistan for duty as CJTF-Paladin.
    My concern is how the Army's EOD force accomplishes its 
deployment demand--seven EOD groups' worth of workload through 
train, deploy and reset for Afghanistan, three groups train, 
deploy, and reset for Iraq, and other contingencies' three 
groups and provide command control of enduring EOD support to 
civil authorities and mobilization for deployment 2 years out 
of 5-year cycles for the National Guard EOD group, and 
accomplishing all the tasks with only three Army groups 
available in the force structure.
    I believe the answer is by professionally teaming the three 
Army EOD groups with the Navy's premier maritime and underwater 
explosive experts under the Navy Expeditionary Combat Command 
led by Rear Admiral Michael Tillotson. His forces augment these 
land-based counter-IED taskings.
    Specifically, EOD Group 1, led by Commodore Ed Eidson, 
based in Coronado, California, is currently conducting 
operations as CJTF-Troy in Iraq and EOD Group 2, led by 
Commodore Dale Fleck, stationed at Little Creek Amphibious 
Base, Virginia, is preparing for deployment.
    With the Marines and Air Force EOD companies and flights 
supporting the Army company level, the Joint Service EOD Force 
has answered the Nation's call for defeating IEDs and 
associated insurgent networks, all while combining forces to 
conduct joint interagency, intergovernmental, and multinational 
operations.
    I highly recommend attending the global EOD conference and 
exhibition on the 3rd through 5th of May this year in 
Representative Jeff Miller's district in Florida to learn more 
about how EOD forces achieve success during these complex 
operations. And I have enclosed industries' proposed strategy 
map on EOD priorities, as it is quite illuminating.
    And, finally, we must continue to support these tremendous 
EOD warfighters in all services, but with particular emphasis 
on the Army as they primarily align to support sustained, land-
based operations by shifting their funding of overseas 
contingency operations supplementals back into each of the 
services' respective baseline budgets on EOD program elements 
for research, development, tests and evaluation, operations and 
maintenance, and procurement.
    This funding amount totaled roughly just over $403 million 
in fiscal year 2010. However, this total does not reflect 
additional funding provided by the Joint IED Defeat 
Organization for specific in-theater EOD equipment, funding for 
training EOD forces, nor funding for transition and transfer 
from Joint IED Defeat Organization to the services of this EOD 
equipment and training.
    Additionally, the funding for Navy single-service 
management of common type EOD training and technology and the 
Office of Secretary of Defense's EOD/Low-Intensity Conflict 
program have remained virtually flatlined for over 10 years, 
despite the increase of emerging threats, for which the EOD 
community is uniquely and singularly qualified to confront.
    We must collectively do more to ensure adequate funding of 
these critical EOD program elements now and make investments in 
EOD force structure readiness for securing the future.
    I respectfully request inclusion of the enclosed proposed 
legislative language, an item of special interest for the 
fiscal year 2012 NDAA, a report on budget justification, 
display of key enabler explosive ordnance disposal force 
structure and budget requirements.
    I remain available to the committee for further assistance 
on EOD matters. And I thank you for your consideration and for 
your service to the Nation.
    [The prepared statement of Mr. Crawford can be found in the 
Appendix on page 79.]
    The Chairman. Thank you very much. I appreciate your 
efforts on this. This is one of the big concerns that I have 
with IEDs and what a tremendous impact they have had on us in 
both Iraq and Afghanistan. So this is something we will look at 
as we move forward on the bill and appreciate you working with 
us on this.
    Mr. Crawford. Yes, sir. Glad to be of help.
    The Chairman. Thank you very much.
    That concludes our witnesses that have signed up to 
participate today, so this hearing will be adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 14, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 14, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7393.079
    
    [GRAPHIC] [TIFF OMITTED] T7393.001
    
    [GRAPHIC] [TIFF OMITTED] T7393.002
    
    [GRAPHIC] [TIFF OMITTED] T7393.003
    
    [GRAPHIC] [TIFF OMITTED] T7393.004
    
    [GRAPHIC] [TIFF OMITTED] T7393.005
    
    [GRAPHIC] [TIFF OMITTED] T7393.071
    
    [GRAPHIC] [TIFF OMITTED] T7393.072
    
    [GRAPHIC] [TIFF OMITTED] T7393.073
    
    [GRAPHIC] [TIFF OMITTED] T7393.074
    
    [GRAPHIC] [TIFF OMITTED] T7393.075
    
    [GRAPHIC] [TIFF OMITTED] T7393.076
    
    [GRAPHIC] [TIFF OMITTED] T7393.077
    
    [GRAPHIC] [TIFF OMITTED] T7393.006
    
    [GRAPHIC] [TIFF OMITTED] T7393.007
    
    [GRAPHIC] [TIFF OMITTED] T7393.008
    
    [GRAPHIC] [TIFF OMITTED] T7393.009
    
    [GRAPHIC] [TIFF OMITTED] T7393.010
    
    [GRAPHIC] [TIFF OMITTED] T7393.011
    
    [GRAPHIC] [TIFF OMITTED] T7393.012
    
    [GRAPHIC] [TIFF OMITTED] T7393.013
    
    [GRAPHIC] [TIFF OMITTED] T7393.014
    
    [GRAPHIC] [TIFF OMITTED] T7393.015
    
    [GRAPHIC] [TIFF OMITTED] T7393.016
    
    [GRAPHIC] [TIFF OMITTED] T7393.017
    
    [GRAPHIC] [TIFF OMITTED] T7393.018
    
    [GRAPHIC] [TIFF OMITTED] T7393.019
    
    [GRAPHIC] [TIFF OMITTED] T7393.020
    
    [GRAPHIC] [TIFF OMITTED] T7393.021
    
    [GRAPHIC] [TIFF OMITTED] T7393.022
    
    [GRAPHIC] [TIFF OMITTED] T7393.023
    
    [GRAPHIC] [TIFF OMITTED] T7393.024
    
    [GRAPHIC] [TIFF OMITTED] T7393.025
    
    [GRAPHIC] [TIFF OMITTED] T7393.026
    
    [GRAPHIC] [TIFF OMITTED] T7393.078
    
    [GRAPHIC] [TIFF OMITTED] T7393.027
    
    [GRAPHIC] [TIFF OMITTED] T7393.028
    
    [GRAPHIC] [TIFF OMITTED] T7393.029
    
    [GRAPHIC] [TIFF OMITTED] T7393.030
    
    [GRAPHIC] [TIFF OMITTED] T7393.031
    
    [GRAPHIC] [TIFF OMITTED] T7393.032
    
    [GRAPHIC] [TIFF OMITTED] T7393.033
    
    [GRAPHIC] [TIFF OMITTED] T7393.034
    
    [GRAPHIC] [TIFF OMITTED] T7393.035
    
    [GRAPHIC] [TIFF OMITTED] T7393.036
    
    [GRAPHIC] [TIFF OMITTED] T7393.037
    
    [GRAPHIC] [TIFF OMITTED] T7393.038
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 14, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7393.050
    
    [GRAPHIC] [TIFF OMITTED] T7393.055
    
    [GRAPHIC] [TIFF OMITTED] T7393.056
    
    [GRAPHIC] [TIFF OMITTED] T7393.057
    
    [GRAPHIC] [TIFF OMITTED] T7393.059
    
    [GRAPHIC] [TIFF OMITTED] T7393.060
    
    [GRAPHIC] [TIFF OMITTED] T7393.067
    
    [GRAPHIC] [TIFF OMITTED] T7393.068
    
    [GRAPHIC] [TIFF OMITTED] T7393.069
    
    [GRAPHIC] [TIFF OMITTED] T7393.061
    
    [GRAPHIC] [TIFF OMITTED] T7393.062
    
    [GRAPHIC] [TIFF OMITTED] T7393.063
    
    [GRAPHIC] [TIFF OMITTED] T7393.064
    
    [GRAPHIC] [TIFF OMITTED] T7393.065
    
    [GRAPHIC] [TIFF OMITTED] T7393.066
    
    [GRAPHIC] [TIFF OMITTED] T7393.051
    
    [GRAPHIC] [TIFF OMITTED] T7393.052
    
    [GRAPHIC] [TIFF OMITTED] T7393.053
    
    [GRAPHIC] [TIFF OMITTED] T7393.054
    
    [GRAPHIC] [TIFF OMITTED] T7393.041
    
    [GRAPHIC] [TIFF OMITTED] T7393.042
    
    [GRAPHIC] [TIFF OMITTED] T7393.043
    
    [GRAPHIC] [TIFF OMITTED] T7393.044
    
    [GRAPHIC] [TIFF OMITTED] T7393.045
    
    [GRAPHIC] [TIFF OMITTED] T7393.046
    
    [GRAPHIC] [TIFF OMITTED] T7393.047
    
    [GRAPHIC] [TIFF OMITTED] T7393.048
    
    [GRAPHIC] [TIFF OMITTED] T7393.049
    
    [GRAPHIC] [TIFF OMITTED] T7393.070
    
    [GRAPHIC] [TIFF OMITTED] T7393.039
    
    [GRAPHIC] [TIFF OMITTED] T7393.040
    
    [GRAPHIC] [TIFF OMITTED] T7393.058
    
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
